           U.S. Department of
                                                      Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: ARRA Advisory –                                     Date:    June 28, 2010
           FHWA's Oversight of the Use of Value Engineering
           Studies on ARRA Highway and Bridge Projects
           Advisory No. AA-2010-001

 From:     Calvin L. Scovel III                                          Reply to
                                                                         Attn. of:   J-1
           Inspector General

    To:    The Secretary
           Deputy Secretary

           Attached is an American Recovery and Reinvestment Act (ARRA) Advisory on the Federal
           Highway Administration’s (FHWA) oversight of required value engineering studies used to
           improve performance, reliability, quality, and safety, and reduce life-cycle costs on ARRA
           highway and bridge projects with an estimated total cost equal to or exceeding $25 million and
           $20 million, respectively. Consistent with ARRA and Office of Management and Budget
           guidance, Inspectors General are expected to promptly report potential management and
           funding risks that could impact the effective and efficient use of ARRA funds. We are not
           requesting a formal response to this advisory as the key issues and proposed actions discussed in
           it were provided to cognizant FHWA officials and audit liaisons in advance. We plan to include
           information on these issues in our audit reports on FHWA's oversight of high dollar ARRA
           highway projects and FHWA's oversight of Federal-aid highway projects administered by local
           public agencies.

           We will post the advisory on our website (www.oig.dot.gov/recovery) and www.recovery.gov. If
           you have any questions, please call me at (202) 366-1959 or Joseph W. Comé, Assistant
           Inspector General for Highway and Transit Audits, at (202) 366-5630.


           Attachment

           cc:    Federal Highway Administrator
                  Audit Liaison, OST, M-1
                  Audit Liaison, FHWA, HAIM-13

                                                          #
AA-2010-001                                                                                                        JUNE 28, 2010


                       U.S. DEPARTMENT OF TRANSPORTATION
                       Office of Inspector General


                              ARRA ADVISORY
                       American Recovery and Reinvestment Act

        FHWA's Oversight of the Use of Value Engineering
         Studies on ARRA Highway and Bridge Projects
Key Issues
Our ongoing audits of FHWA’s oversight of $27.5 billion in highway infrastructure investments, funded
through ARRA, revealed some states did not conduct federally required “value engineering” (VE) studies
during project concept and design. These studies aim to objectively review reasonable design alternatives on
highway and bridge projects with an estimated total cost equal to or exceeding $25 million and $20 million,
respectively. While benefits gained from VE studies on specific projects may vary, experience shows VE
studies as a whole improve project performance, reliability, quality, and safety, and reduce life-cycle costs. 1
Our preliminary results indicate that the state and local agencies' failure to comply with VE requirements
resulted from out-of-date regulations and FHWA policy on conducting VE studies. Furthermore, VE
requirements were not included in most of the states' Stewardship and Oversight Agreements with FHWA.
To address audit recommendations we made in 2007 and some of the concerns we identify in this advisory,
FHWA issued performance measures to evaluate states’ progress in achieving quality VE studies in April
2010 and revised its VE policy and guidance in May 2010, but additional actions are still needed.

Proposed Actions for Change
To better ensure Federal-aid highway and bridge projects meet VE study requirements, including those
funded by ARRA, FHWA needs to (1) update 23 Code of Federal Regulations (C.F.R.) § 627, Value
Engineering, to include 2005 VE legislative changes; 2 (2) ensure that FHWA, state, and local staff are fully
informed regarding VE legislative requirements and FHWA's revised VE policy; and (3) require states, the
District of Columbia, and Puerto Rico to include VE requirements in their Stewardship and Oversight
Agreements with FHWA. Timely completion of our proposed actions is important, as states and local public
agencies strive to add projects to meet the final deadline for obligating ARRA funds by September 30, 2010.




1   OIG Report Number MH-2007-040, “Value Engineering in the Federal-Aid Highway Program,” found that state compliance with VE
    requirements could have better used an estimated $725 million in Federal funds over 4 years. Our report can be found on our website:
    www.oig.dot.gov.
2   Pub. L. No. 109-59, Sec. 1904 (2005), the “Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-
    LU),” required that all bridge projects with an estimated total cost of $20 million or more undergo a VE study.


We are issuing these advisories to promptly report potential management and funding risks consistent
with ARRA and Office of Management and Budget guidance.
             DOT
             OIG

         FHWA's Oversight of the Use of Value Engineering
          Studies on ARRA Highway and Bridge Projects
Background
VE analyzes a project’s functions to improve performance, reliability, quality, and safety, and reduce life-cycle
costs. Federal law requires all federally aided highway and bridge projects with an estimated total cost equal
to or exceeding $25 million and $20 million, respectively, to undergo VE studies during project concept and
design. 3 These cost thresholds also apply to the $27.5 billion in FHWA highway infrastructure projects
funded through ARRA. According to FHWA, to achieve maximum project effectiveness, VE studies should
generally be performed early in project development and design to avoid project delays or significant rework
of completed designs and, thereby, have the greatest impact on a project's life-cycle costs. Furthermore, VE
study recommendations conducted prior to a project’s construction can result in reductions in project cost
estimates that release funds states can re-program to other Federal-aid highway and bridge projects.

What We Found
Our ongoing audit of high dollar ARRA highway projects found that the District of Columbia, Alaska, and
Missouri did not perform VE studies during the project concept and design phase on the projects shown in
the following table, although their projects exceeded the VE threshold. Two additional states met the
requirement to perform VE studies, but the studies, in our opinion, were performed late in the process.
Specifically, Pennsylvania and North Carolina performed the studies for the projects shown below only
months before beginning the contract bid process, thereby lessening the likelihood that the studies’ results
would be used to improve functionality and safety, and to reduce costs and construction times.

    State*                    ARRA Project                   Required VE Study Status                              Project Value In Millions
    District of Columbia      New York Avenue                Not conducted                                                  $36.6
    Alaska                    Willow to Kashwitna            Not conducted                                                  $27.5
    Missouri                  I-44                           Not conducted                                                  $27.1
    Pennsylvania              Girard Point Bridge            Conducted less than 2 months before the                        $77.4
                                                             start of the project's contract bid process
    North Carolina            Fayetteville Outer Loop        Conducted 1 month before the anticipated                       $55.1
                                                             start of the project's contract bid process
    * Alaska and Missouri were not part of our preliminary sample of projects receiving more than $20 million in ARRA funding, but were
      identified by FHWA's National Review Teams as not conducting required VE studies.
    Source: OIG and FHWA's Federal Highway Management Information System, as of April 2010

Under ARRA, local public agencies have a significant role and could manage up to 30 percent of ARRA
highway funds in some states. In our ongoing audit of FHWA's oversight of Federal-aid highway projects
administered by local public agencies, we reviewed 11 California local public agencies slated to receive ARRA
funding and found that 2 Federal-aid projects and 1 ARRA project did not have the required VE studies.

3
     Other projects that the U.S. Secretary of Transportation determines to be appropriate may also require a VE study.


                                                                          2
           DOT
           OIG

        FHWA's Oversight of the Use of Value Engineering
         Studies on ARRA Highway and Bridge Projects
Our preliminary results indicate that the failure to conduct VE studies or conduct them in a timely manner
resulted from several FHWA omissions.

•     FHWA has not updated its C.F.R. to include VE legislative changes made in 2005, including the new
      requirement for bridge projects with an estimated total cost equal to or exceeding $20 million to undergo
      a VE study. Officials responsible for VE oversight on one project stated the required VE study was not
      done because they relied on the C.F.R. and were not aware of the legislative change regarding bridge
      projects.

•     FHWA’s VE policy also lacked information on VE legislative changes made in 2005, study timeliness,
      dollar thresholds, and actions needed when project cost estimates escalate past VE thresholds. After cost
      estimates escalated past the VE thresholds, two project officials did not conduct a required VE study
      because it was deemed too late in project development to perform a study.

•     FHWA's Stewardship and Oversight Agreement policy does not include VE requirements as an element
      states should address in their agreements. Of the 52 Stewardship and Oversight Agreements with
      FHWA, 4 16 do not mention VE and 32 either do not cite the $20 million threshold for bridge VE studies
      or explain the bridge VE requirement incorrectly.

Future OIG-Related Activities
Since March 2010, we have met with FHWA to resolve the concerns noted above and the outstanding 2007
VE report recommendations. According to FHWA, its May 2010 VE policy addresses VE study timeliness
and provides effective guidance while regulatory updates proceed. Furthermore, while not directly requiring
states to include VE in their Stewardship and Oversight agreements, FHWA contends that its April 2010 VE
performance measures provide integration of VE into FHWA and state practices. As part of our ongoing
ARRA audits, we plan to review FHWA's implementation of its policy and performance measures and to
further assess VE issues and FHWA's actions. We are not requesting a formal response to this advisory. The
advisory will be posted on our website (www.oig.dot.gov/recovery) and www.recovery.gov.


    For information on this advisory, contact Joseph W. Comé, Assistant Inspector General for
    Highway and Transit Audits, at (202) 366-5630.




4   Although FHWA retains overall oversight responsibility for all aspects of Federal-aid programs, the states, District of Columbia, and Puerto
    Rico have entered into Stewardship and Oversight Agreements with FHWA that establish their responsibilities for Federal-aid highway projects.


                                                                        3
